                    OFFICE O F INSPECTOR GENERAL
                   CORPORATION FOR NATIONAL AND
                        COMMUNITY SERVICE




                          OIG Letter Report Regarding
                 Limited Network Security Assessment Testing




                            OIG Report Number 02-23
                                 April 10, 2002




                        GSA Contract No. GS-23F-8127H
                      Purchase Order No. CNSIG-02-G-0002




                        FOR OFFICIAL USE ONLY

This letter report contains information about Corporation computer security
practices and vulnerabilities. All recipients of this report should take care to
prevent the unauthorized disclosure of the report or its contents. Requests for
release of this report or its contents must be referred to the Inspector General.
                                                                                                        CORPORATION
                                     Office of Inspector General                                        FOR NATIONAL
                           Corporation for National and Community Service

                                               Audit Report 02-23

                                     OIG Letter Report Regarding
                              Limited Network Security Assessment Testing

Introduction

OIG engaged KPMG LLP to conduct limited follow up penetration testing on selected servers of
the local area network at the Corporation's headquarters in an effort to replicate the results of
testing conducted in August 2001 in connection with OIG's evaluation of the Corporation's
information security practices and its compliance with the Government Information Security
Reform Act (GISRA).

During the August testing, KPMG's evaluators identified some indications that malicious software,
specifically Net Spy and Trojan Cow, might be present on four of the Corporation's servers. The
Corporation's information technology personnel reviewed these results, concluded that they were
"false-positive", and determined that no further action was necessary at that time.

In connection with the annual audit of the Corporation's Financial Statements for fiscal year 2001
and in consultation with the Corporation's staff, OIG decided to retest the affected servers in April
2002 to determine whether any indications of malicious software were still present. The
evaluators concluded that neither Net Spy nor Trojan Cow software were present on the servers.
KPMG and Corporation information technology personnel agreed that the August indicators were
indeed "false-positive" results.

Under GISRA's requirements and implementing guidance from the Office of Management and
Budget (OMB), the Corporation and OIG will conduct additional evaluations of the Corporation's
information security program during the fourth quarter of fiscal year 2002.

Because this report concerns Corporation computer security practices and vulnerabilities, its
distribution is limited to OIG and Corporation management and CIO personnel who have a need to
know the information in order to perform their official duties. It is also available upon request to
OMB and the United States Congress. Due to the security matters discussed, however, this report
is exempt from release to the general public.




                                                                                                    Inspector General
                                                CONFIDENTIAL                                        1201 New York Avenue, NW
               Release of this report or its contents must be authorized by the Inspector General   Washington, DC 20525
             2001 M Street. N.W.
             Washington, DC 20036




April 10,2002

Inspector General
Corporation for National and Community Service
Washington, DC 20525

At your request, KPMG LLP (KPMG) on April 10, 2002 performed limited penetration
testing on four (4) specific servers located on the local area network at the Corporation
for National and Community Service headquarters.

Background

This testing was done as a follow-up to penetration testing KPMG had previously
performed in August 2001 as part of the evaluation of the Corporation's compliance with
the Government Information Security Reform Act (GISRA). During the August testing
the preliminary results indicated the possible presence of malicious software on four (4)
of the Corporation's sewers. The type of vulnerability identified by the testing could
permit an unauthorized person with malicious intent to cause significant harm to the
Corporation's systems.      Subsequent investigation by the Corporation's information
technology (IT) staff concluded that the results were a "false-positive", and that no
further action was necessary. Normally, KPMG would have re-performed the testing or
taken other steps to independently verify the conclusions of the Corporation's staff.
However, in this case, for a variety of reasons, that could not be done at the time.
Subsequently, KPMG recommended that the severity of preliminary findings was such
that it would be prudent to re-test the sewers in question and to verify the Corporation's
conclusions.

Results in Brief

On April loth W M G with the assistance of the Corporation's staff, re-scanned the
servers in question, and performed other procedures in an attempt to replicate the August
results. During part one of the testing, KPMG did not find any signs of the malicious Net
Spy Trojan software on any of the four servers. During part two of the testing, KPMG
was able to replicate the symptoms that originally indicated the possibility of the
malicious Trojan Cow software. However, subsequent procedures done in cooperation
with the Corporation's IT staff were mutually agreed to disprove the presence of Trojan
software. And, it was mutually concluded that the original indications were, in fact, a
"false-positive". At that point all objectives for the testing had been met.


                                            CONFIDENTIAL
           Release of this report or its contents must be authorized by the Inspector General




1111            KPMG LLP KPMG LLP a U S l m ~ t e dihab~lttypmnershp, s
                a member of KPMG lnternafonal, a Swiss assomtlon
The Appendix to this report provides the technical details of the testing steps that were
performed. Much of the relevant information about testing results is presented in the
form of screen captures that were taken during the process.

We conducted our procedures in accordance auditing standards generally accepted in the
United States of America and the standards applicable to performance audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States.

Distribution

As required by the Government Corporation Control Act, this report is intended solely for
the information and use of the Corporation for National and Community Service and its
Inspector General, and is not intended to be and should not be used by anyone other than




                                             CONFIDENTIAL
            Release of this report or its contents must be authorized by the Inspector General
                   CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                        LIMITED NETWORK SECURITY ASSESSMENT

Purpose:     To describe the methodology used and test results from the limited penetration testing
performed on four servers at the Corporation for National and Community Service on April 10,2002.

Summary

Screen-capture shots in the following sections show the step-by-step methodology KPMG used during the
network security assessment. They also show the results of each test step. Because this was a "focused"
assessment (a follow up examination), KPMG only scanned four servers with "Super Scan and FSCAN"
scanners. KPMG was verifying whether or not Net Spy or Trojan Cow trojans were listening on ports 1033ltcp
and 2001Itcp on any of following servers:




KPMG verified that Net Spy was not present on the four servers. More detail on this is provided in subsequent
section of this appendix. KPMG did find Port 2001 was open on the ACS server. However, it was concluded
that the Access Control Server that is running Cisco Secure Access Control Server software is using that port.

Test Steps:

Step 1.       KPMG performed a "port scan" using the Superscan tool and found 10.0.0.9 to be running a
mailserver, webserver, NETBIOS connections, SSL, and MSsql server, as shown in figure 1.
[Note: The KPMG tester's ip address was 10.0.6.131




              I       25   simple M a i l ~ r a n s f e r
                      I     2 2 0 - s q l t e s t . c n s . g o v M i c r 0 ~ 0 f tSMTP MAIL r e a d y a t wed, 1 0 Apr 2002 09:50:4:
              1-      80   w o r l d Wide web HTTP
                      I     H T T P / ~ . 403  ~        Access orb id den. . s e r v e r : ~ i c r o s o f t - 1 1 s j 4 . 0 . ate: wed, 1 0 A[:
              1      135   DCE endpoint r e s o l u t i o n
              1      139   NETBIOS s e s s i o n s e r v i c e
              1      443   h t t p s Mcom
              1      465   ssmtp
                      I     2 2 0 - s q l t e s t . c n s . g o v M i c r o s o f t SMTP MAIL r e a d y a t wed, 1 0 Apr 2002 09:50:JE
              1-   1030    BBN IAD
                           BBN IAD
                           ~i  crosoft-SQL-server




Appendix                                                                                                                   Page A- l
                                                      CONFIDENTIAL
                   Release of this report or its contents must be authorized by the CNS Inspector General
Step 2.      KPMG performed a "port scan" using the Superscan tool and found 10.0.0.32 to be running a
webserver, NETBIOS connections, and a MSsql server, as shown in figure 2.




                             w o r l d w i d e web HTTP
                             DCE e n d p o i n t r e s o l u t i o n
                             NETBIOS sess io n S e r v i c e
                             BBN I A D
                             Microsoft-SQL-server




                                                                       Figure 2.


Step 3.         KPMG performed a "port scan" using the Superscan tool and found 10.0.0.37 to be using
various ports, none of which contained any Trojans. All ports that are open appear to be normal or open as a
result of using third-party software, as shown in figure 3.




     1     1-
           1
                     27
                    110
                           NSW u s e r system FE
                           Post o f f i c e P r o t o c o l - V e r s i o n 3
                       I    +OK ~ i c r o s o f t Exchange POP3 s e r v e r v e r s i o n 5.5.2653.23                       ready. .
           1         1 1 9 Network NEWS ~ r a n s f e rP r o t o c o l
                       1-   200 ~ i ~ r 0 5 0 ~        f tx c h a n g eI n t e r n e t News s e r v i c e v e r s i o n 5 .,5.2653.23 ( p o s t i n g
           1-        1 3 5 DcE e n d p o i n t r e s o l u t i o n
           1        1 3 9 NETBIOS S e s s i o n S e r v i c e
           I         143 I n t e r n e t Messaae Access p r o t o c o l
                       I - * OK M? c r o s o f f Exchange I M A P 4 r e v l s e r v e r v e r s i o n 5.5.2653.23 (exchange. cns
               -     1 9 9 SMUX
               -     389 ~i    g h t w e i g h t D i r e c t o r y Access p r o t o c o l
               -     563 snews
               -     636 s s l - l d a p
               -     995 ssL based pop3
               -   1673 I n t e l p r o s h a r e ~ u l t i c a s t
               -   1 6 7 6 netcomml
                       I    n c a c n - h t t.d- l . 0
           1       1683 ncpm-hi
           1
                       I                 R
                            ncacn- t t p / l . 0
                   1695 r r i l m
                       I - ncacn-htt p / l . 0
           1-      1713 Conf erenceTa1 k
           1       1 7 1 6 xmsg
                       I- n c a c n - h t t p / l . 0
           I       1 9 8 7 c i s c o RSRB P r i o r i t y 1 p o r t
                      I        .............................
           I       2301      compaq ~ n s i g h tManager



                                                                       Figure 3.


Appendix                                                                                                                            Page A-2
                                                             CONFIDENTIAL
                          Release of this report or its contents must be authorized by the CNS Inspector General
Step 4.      KPMG performed a "port scan" using the Superscan tool and found 10.0.0.69 was running
Netbios connections. In addition, it appears that port 2000,2001, and 2002 are listening, as shown in figure 4.




                                                               Figure 4.


Step 5.       Because scanning tools sometimes give differing results, the above scans were repeated with a
second tool. KPMG performed a "port scan" on 10.0.0.9 using the Fscan and obtained results similar to the
SuperScan results, as shown in figure 5.




II   Scan started at Wed Apr 10 O9:42 :49 2002

  10.0.0.9                25/tcp
     220-sqltest.cns.gov Microsoft SHTP MAIL ready at Wed, 10 Apr 2002 09:51:25
       -0400 Version: 5.5.1774.114.11[0D][OA]220   ESXTP spoken here[OD][OA]
  10.0.0.9                8O/tcp
     HTTP/ 1.1 400 Bad Request [OD] [OI]Server: Mlcrosoft-IIS/4.0[0D] [Oh]Date: Wed
     , 10 Apr 2002 13 :5l:25 GMT[OD] [Oh]Content-Type: text/html[OD] [Oh]Content-L
     ength: 87[OD] [Oh] [OD][Oh]
  10.0.0.9              139/tcp
      [831 COO1 LOO1 Loll [SF1
  10.0.0.9               135/tcp
  10.0.0.9              443/tcp
  10.0.0.9             1433/tcp                            I
  10.0.0.9               135/udp
  10.0.0.9               137/udp
  10.0.0.9               138/udp

     Scan finished at Wed Apr 10 09:42:54 2002
     Time taken: 32 ports in 5.248 secs (6.10 ports/sec)



                                                               Figure 5.




Appendix                                                                                                          Page A-3
                                                            CONFIDENTIAL
                         Release of this report or its contents must be authorized by the CNS Inspector General
Step 6.       KPMG performed a "port scan" using the Fscan on 10.0.0.32 and obtained results similar to the
Superscan results, as shown in figure 6.




 I Scan    s t a r t e d a t Wed Apr 10 09:38:52           2002

 10.0.0.32            139/tcp
    L831 LOO1 LOO1 1011 [8FI
 10.0.0.32              80/ t c p
 10.0.0.32            135/tcp
 10.0.0.32           1433/tcp
 10.0.0.32              53/udp
 10.0.0.32            135/udp
 10.0.0.32            137/udp
 10.0.0.32            138/udp

  S c a n f i n i s h e d a t Wed Apr 10 0 9 : 3 8 : 5 8 2002
  Time t a k e n : 32 p o r t s i n 6.600 s e c s ( 4 . 8 5 p o r t s / s e c )




Step 7:       KPMG performed a "port scan" using the Fscan on 10.0.0.37 and obtained results similar to the
Superscan results, as shown in figure 7.




  I Scan   s t a r t e d a t Wed Apr 10 0 9 : 3 9 : 1 6     2002

  10.0.0.37                  139/tcp
     1831 1001 LOO1 [Oil 18FI
  10.0.0.37                  llO/tcp
     +OK M l c r o s o f t Exchange POP3 s e r v e r v e r s i o n 5 . 5 . 2 6 5 3 . 2 3 readyCOD1 [Oh]
  10.0.0.37                  119/tcp
     200 M i c r o s o f t Exchange I n t e r n e t News S e r v i c e V e r s i o n 5 . 5 . 2 6 5 3 . 2 3 ( p o s t i n g
     a l l o w e d ) [OD] [OA]
  10.0.0.37                  135/tcp
  10.0.0.37                  389/tcp                                                                               1
  10.0.0.37                  135/udp
  10.0.0.37                  137/udp
  10.0.0.37                  138/udp
  10.0.0.37                  16l/udp
  10.0.0.37                  162/udp

   S c a n f i n i s h e d a t Wed Apr 10 0 9 : 3 9 : 2 4 2002
   Time t a k e n : 32 p o r t s i n 8 . 0 6 1 s e c s ( 3 . 9 7 p o r t s / s e c )




 Appendix                                                                                                                    Page A-4
                                                                      CONFIDENTIAL
                                   Release of this report or its contents must be authorized by the CNS Inspector General
Step 8:       KPMG performed a "port scan" using the Fscan on 10.0.0.69 and obtained results similar to the
Superscan results, as shown in figure 8.




 I Scan   s t a r t e d a t Wed Apr 10 0 9 : 3 9 : 4 1 2002




  Scan f i n i s h e d a t Wed Ipr 10 0 9 : 3 9 : 4 9 2002
  Time t a k e n : 32 ports i n 8 . 0 3 1 s e c s ( 3 . 9 8 ports/sec)




Step 9:        KPMG found port 2001 open, as had been the case during the August testing. Following the
testing procedure used in the prior testing, the Trojan Cow client was run, and again appeared to make a
connection, as shown in figure 9.




Appendix                                                                                                                Page A-5
                                                                  CONFIDENTIAL
                               Release of this report or its contents must be authorized by the CNS Inspector General
Step 10:      As a method of testing whether the Trojan Cow client actually had connected to the server, an
attempt was made to use two of the trojan's functions. However, KPMG was unable to open the CD tray using
the Trojan Cow client, as shown in figure 10.




                                                        Figure 10.


Step 11:      And, KPMG was unable to start a process running on the server. An attempt was made to startup
notepad.exe on 10.0.0.69, but was unable to do so, as shown in figure 11.




After checking in the above manner, it was concluded that the Trojan Cow client was not really making a
connection to the server, and that the indications of a connection were a "false-positive". The Corporation's IT
staff provided the information that the Cisco Secure Access Control Server software was currently running on
10.0.0.69, and, the most logical conclusion was that it was the ACS software that was using port 2001.


Step 12:       Subsequent to the testing done at CNCS, KPMG independently verified through vendor
documentation that the ACS software does use ports 2000, 2001, and 2002 as default settings. Information
regarding the Cisco Secure ACS and ports associated with the software can be found at:
                                          view.pl?p=Software:Cisco Secure ACS NT.
http://www.cisco.com/pc~i-bin/Support/PSP/psp




Appendix                                                                                                     Page A-6
                                                     CONFIDENTIAL
                    Release of this report or its contents must be authorized by the CNS Inspector General
